NO: P-l- 360
IN THE

Supreme Court, U.S.
FILED

AUG 3 1 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Joseph Constant
Petitioner
v.
DTE Electric company, aka DTE Energy, aka Detroit Edison
Company, aka DTE; Leland Prince, Shalina D. Kumar,
Michael David Warren Jr., Deborah A. Servitto, James M
Hammond, Cheryl A Matthews, Rae Lee Chabot, Karen M
Ft Hood, Jane M Beckering, Nanci J Grant
Respondents.

On Petition for a Writ of Certiorari
To The United States Sixth Circuit Court of Appeals

PETITION FOR A WRIT OF CERTIORARI

Joseph Constant
Pro Se Petitioner
49 Highland Drive
Bloomfield Hills Michigan 48302-0355
Tel: 248-599-2680

QUESTIONS PRESENTED
In 1936, Halsted L. Ritter, U.S. District Court for the Southern District of Florida
was Impeached by the U.S. House of Representatives, March 2, 1936, on charges
of favoritism in the appointment of bankruptcy receivers and practicing law while
sitting as a judge; Convicted by the U.S. Senate and removed from office, April
17, 1936.
Other judges that made similar acts to Ritter's and met the same similar fates
are1. Robert W. Archbald, Commerce Court and U.S. Court of Appeals for the
Third Circuit. Impeached by the U.S. House of Representatives, July 11,
1912, on charges of improper business relationship with litigants; Convict*
ed by the U.S. Senate and removed from office, January 13, 1913.
2. Alcee L. Hastings, U.S. District Court for the Southern District of Florida.
Impeached by the U.S. House of Representatives, August 3, 1988, on
charges of perjury and conspiring to solicit a bribe; Convicted by the U.S.
Senate and removed from office, October 20, 1989.
3. G. Thomas Porteous, Jr., U.S. District Court for the Eastern District of
Louisiana. Impeached by the U.S. House of Representatives, March 11,
2010, on charges of accepting bribes and making false statements under
penalty of perjury; Convicted by the U.S. Senate and removed from office,
December 8, 2010.
The source of the above information ishttps V/historv.house.gov/Institution/Impeachment/Impeachment-List/
1. There is a Michigan judges RICO Enterprise that was involved in the pro­
ceedings of the lower courts both state and federal.
2. The Enterprise is an illegal, illicit law-firm that is owned, managed, oper­
ated, controlled and directed by Michigan judges which includes but are
not limited to Kumar, Matthews, Grant, Warren, Chabot, Servitto, Becker*
ing and Ft Hood
3. The Enterprise is masked, cloaked and disguised in business by attorney
Lincoln G Herweyer, Timothy Young, and the Cummings, McClorey, Davis,
Acho PLC and they have posed as attorneys for the Enterprise's client DTE.
4. DTE has an open contract with the Enterprise for litigation services in PO
A32211400.

n

5. Judge Kumar and the Executives of the Judges' RICO Enterprise made
frauds upon the court when1. They litigated cases for DTE under DTE‘to*E.nterprise PO A32211400
between 2/5/2013 and 6/21/2021,
2. They furthered the specialized 2013 conspiracy and contract between
DTE, Judge Kumar and the Enterprise to defraud the court for court
orders, which DTE would otherwise, not have been able to obtain by
law, facts and evidence,
3. They violated Canon 4(H) of the Michigan code of Judicial conduct, the
RICO Act and my civil rights.
The Questions Presented are*
I

Did Judge Kumar and the Executives of the Judges' RICO Enterprise made
frauds upon the court when1. They litigated cases for DTE under the DTE-to-Enterprise PO
A32211400 between 2/5/2013 and 6/21/2021,
2. They furthered the specialized 2013 conspiracy and contract between
DTE, Judge Kumar and the Enterprise to defraud the courts for court
orders, which DTE would otherwise, not have been able to obtain by
law, facts and evidence,
3. They violated Canon 4(H) of the Michigan code of Judicial conduct, the
RICO Act and my civil rights?

II Can Res judicata, the Rooker-Feldman Doctrine and Judicial immunity bar
and dismiss my complaints, when their elements have not been met?
III Does The Supreme court's rules 10(a), (b), (c) provides strong and compelling
reasons for Grant of this Petition?

in

LIST OF PARTIES
[■] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list
of all parties to the proceeding in the court whose judgment is the subject of
this petition is as follows-

RELATED CASES
1.

DTE Electric v Joseph Constant, 2013-132055-CH, Oakland CTY 6th. Cir. CT.

2.

DTE Electric Company v Joseph Constant, 317976, Michigan Court of
Appeals, Decision Date: December 4, 2014

3.

DTE Electric Company, v Joseph Constant, 150846, Michigan Supreme
Court Discretionary Court Decision Date^September 29, 2015

4.

Joseph Constant, Petitioner v. DTE Electric Company, aka Detroit Edison
Company, 15*8040, U.S. Supreme Court Decision Date: September 29, 2015

5.

Joseph Constant v Michigan State Attorney General, 2016*153074*AW,
Oakland CTY 6Th. Cir. CT.

6.

Joseph Constant v, DTE Electric, 2016*153631*CZ, Oakland CTY 6^. Cir.
CT.

7.

Joseph Constant v DTE Electric Company, 339034, Michigan COA

8.

Joseph Constant v DTE Electric Company, 338686, Michigan COA

9.

Joseph Constant v DTE Electric Company, 158461, Michigan Supreme Court

10.

Joseph Constant v DTE Electric Company, 338685, Michigan COA

11.

Joseph Constant v DTE Electric Company, 338471, Michigan COA

12.

Joseph Constant v DTE Electric Company, 336620, Michigan COA

13.

Joseph Constant v DTE Electric Company, 158458, Michigan Supreme Court

14.

Joseph Constant v James M Hammond, 2016*155099*CZ, Oakland CTY 6^11.
Cir. CT.

15.

Joseph Constant v James M Hammond, 336489, Michigan Court of Appeals

16.

Joseph Constant v James M Hammond, 158457, Michigan Supreme Court

IV

RELATED CASES
17.

Joseph Constant v James M Hammond, 339311, Michigan Court of Appeals

18.

Joseph Constant v Leland Prince, 2016-155238-CZ, Oakland CTY 6lth. Cir.
CT.

19.

Joseph Constant v Leland Prince, 338455, Michigan Court of Appeals

20.

Joseph Constant v Leland Prince, 337483, Michigan Court of Appeals

21.

Joseph Constant v Leland Prince, 158459 Michigan Supreme Court

22.

Joseph Constant v Leland Prince, 158460, Michigan Supreme Court

23.

Joseph Constant v Attorney Grievance Commission, 153609, Michigan
Supreme Court

24.

Joseph Constant v. Shalina Kumar, 2*15*cv'11926, U.S. District Court,
Eastern District of MI

25.

Joseph Constant v Shalina Kumar, 15-1867, United States Court of Appeals
for the Sixth Circuit Decision Date: July 20, 2016

26.

Joseph Constant, v. Shalina Kumar, 16-7136, U.S. Supreme Court,

27.

Joseph Constant v DTE Electric et al., 2:i5-cv-11927, U.S. District Court,
Eastern District of MI

28.

Joseph Constant v. DTE Electric, et al.
the sixth circuit.

29.

Joseph Constant v. Bill Schuette, et al., 2U5-CV-11928, U.S. District Court,
Eastern District of MI

30.

Joseph Constant v. Bill Schuette, et al., 15-1882, U.S. 6th. Circuit

31.

Joseph Constant v. Bill Schuette, et al., 2U6-CV-11639, U.S. District Court,
Eastern District of MI

32.

Joseph Constant v. Bill Schuette, et al., 16-2077, U.S. 6th. Circuit

33.

Joseph Constant v. Bill Schuette, et al., 16*2078, U.S. 6th. Circuit

34.

Joseph Constant v. Bill Schuette, et al., 2:i6-cv-11639, U.S. District Court,
Eastern District of MI

35.

Joseph Constant v. Hammond, 2:i6-cv-10629-SFC-RSW, U.S. District Court,
Eastern District of MI

36.

Joseph Constant v. Rae Chabot, 2:i7*cv-10018, U.S. District Court, Eastern

v

15*1886, U.S. Court of Appeals for

RELATED CASES
District of MI
37.

Joseph Constant v. Rae Chabot, 17-1236. U.S. 6th. Circuit

38.

Joseph Constant v. Cheryl Matthews, 5*16*cvl4501, U.S. District Court,
Eastern District of MI 08/03/2018

39.

Joseph Constant v. Cheryl Matthews, 17*1750, U.S. 6th. Circuit

40.

Joseph Constant v DTE Electric et. al., 19*10339, U.S. District court,
Eastern District of Michigan

41.

Joseph Constant v DTE Electric company et al., 20-1514, U.S. Court of
Appeals for the sixth circuit

vi

TABLE OF CONTENTS
Questions Presented

n

List of Parties

IV

List of Related Cases

IV

Table of Appendices

IX

Table of Authorities

xv

Opinions Below

1

Jurisdictions

1

Constitutional and Statutory provisions involved

2

Statement of the Case

3

A.

There is an Enterprise as defined by the RICO Act, that is cen­
tral in this matter. It is a Michigan Judges' owned Law-firm.

3

B.

Judge Kumar made a fraud upon the courts for the Enterprise
and DTE and violated Canon 4 (H) of the Michigan code of ju­
dicial conduct.

4

C.

Judge Kumar and DTE conspired and violated 18 USC §§
1343 & 1341, the RICO Act, 4th, 14th Amendments, 42 USC §
1983, conspiracyto-conceal and frauds-upon-the-court

5

D.

There is a DTE-to-Enterprise Purchase-order A32211400.

5

E.

Judge Kumar's and the Enterprise’s Litigating Acts Provides
Abounding, Direct and Empirical Proof of the Enterprise.

8

F.

The Proceedings in the Federal Courts.

29

Reasons for Granting the Petition
I

24

Judge Kumar and the Executives of the Judges’ RICO Enter­
prise made frauds upon the court when-

Vll

29

1. They litigated cases for DTE under the DTE-to-Enterprise PO
A32211400 between 2/5/2013 and 6/21/2021,
2. They furthered the specialized 2013 conspiracy and contract
between DTE, Judge Kumar and the Enterprise to defraud
the court for court orders, which DTE would otherwise, not
have been able to obtain by law, facts and evidence,
3. They violated Canon 4(H) of the Michigan code of Judicial con­
duct, the RICO Act and my civil rights.
Res judicata, the Rooker*Feldman Doctrine and Judicial immu­
nity cannot bar and dismiss my complaints, when their elements
have not been met.

29

III The Supreme court's rules 10(a), (b), (c) provides strong and com­
pelling reasons for Grant of this Petition.

29

Conclusion

37

II

Proof of Service
Certificate of Compliance
Appendices

vm

TABLE OF APPENDICES

PAGE

1

Appendix A

Decision of the United State Court of Ap­
peals for the Sixth circuit

App-l

2

Appendix B

Decision of The United States District Court
Michigan Eastern District

App-6

3

Appendix C

Decision of the United State Court of Ap­
peals for the Sixth circuit rehearing

App-23

4

Appendix D

Decision of the Michigan Court of Appeals

App-25

5

Appendix E

Decision of the Michigan Supreme Court
Denying Review

App-37

6

Appendix F

Decision of the Michigan Oakland county
6th circuit court in Constant v DTE

App-39

7

Appendix G

Decision of the Michigan Oakland county
6th circuit court in Constant v Hammond

App-44

8

Appendix H

Decision of the Michigan Oakland county
6th circuit court in Constant v Prince

App-49

9

Appendix I

Article 6, Clause 2 - The Supremacy Clause
of the United States

App-63

10

Appendix J

Amendment 4 ■ Search and Seizure

App-64

11

Appendix K

Amendment 7 - Trial by Jury in Civil Cases.

App-65

12

Appendix L

Amendment 14 ■ Citizenship Rights - Due
process and Equal Protection of the Laws
Section 1.

App-66

13

Appendix M

18 USC § 1341 - Frauds and swindles

App-68

IX

TABLE OF APPENDICES

PAGE

14

Appendix N

18 USC § 1343 ■ Fraud by wire, radio, or
television

App-71

15

Appendix 0

18 USC § 1962— Racketeer Influenced and
Corrupt Organizations Act - Prohibited acts

App-72

16

Appendix P

18 USC § 1964 * Civil remedies

App-86

17

Appendix Q

42 USC § 1983. Civil action for deprivation
of rights

App'92

18

Appendix R

28 USC § 1331. Federal question

App-101

19

Appendix S

The 2/5/2013 Order for me to show cause
why an order of preliminary injunction shall
not issue against me. Also contains the non*
filed motion for the order.

App-124

20

Appendix T

The 2/20/2013 order for affidavits and briefs

App-132

21

Appendix U

The 3/27/2013 order of preliminary injunc­
tion against me

App-133

22

Appendix V

The 8/14/2013 order of dismissal

App-140

23

Appendix W

Judge Chabot’s 11/23/2016 voluntary self*
■disqualification order

App-141

24

Appendix X

The 6/7/2017 bench warrant for me to be ar­
rested with a $10,000 cash bond.

App-142

25

Appendix Y

The 6/11/2018 bench warrant for me to be
arrested with a $10,000 cash bond.

App-144

26

Appendix Z

The Transcripts of 8/14/2013 - The DTE

App-146

x

TABLE OF APPENDICES

PAGE

motion for voluntary dismissal
27

Appendix AA The Transcripts of 8/3/2016 - The DTE
motion to reassign case to Judge Kumar

App-154

28

Appendix AB The Transcripts of 8/17/2016 - The DTE
motion to re-assign case to Judge Kumar

App*168

29

Appendix AC The Transcripts of 9/28/2016 - The DTE
motion to strike my complaint

App-180

30

Appendix AD The Transcripts of 11/23/2016 - The DTE
motion to strike my complaint

App-194

31

Appendix AE The transcripts of 6/7/2017

App-205

32

Appendix AF The transcripts of 9/11/2019 in USDC-MIED

App-210

33

Appendix AG The original 2/5/2013 DTE complaint pa­
pers.

App*237

34

Appendix AH The 3/1/2013 DTE brief in support of its mo­
tion for preliminary injunction against me,
with Hammond's affidavit and a DTE 1912
ROW Agreement.

App-242

35

Appendix AI

App-253

36

Appendix AJ . The register of actions for Oakland CTY 6th.
Cir. Ct., 2013-132055-CH, DTE v Constant.

App-256

37

Appendix AK The register of actions for Oakland CTY
6*th. Cir. Ct., 2016-153074'AW, Constant v
Mich. State Atty Gen et. al.

App-263

Halash's emails to me.

xi

i

TABLE OF APPENDICES

PAGE

38

Appendix AL The register of actions for Oakland CTY 6th.
Cir. Ct., 2016-153631-CZ, Constant v DTE

App-267

39

Appendix AM The register of actions for Oakland CTY 6th.
Cir. Ct., 2016-155099-CZ, Constant v
Hammond.

App-280

40

Appendix AN The register of actions for Oakland CTY 6th.
Cir. Ct., 2016'155238-CZ, Constant v
Prince.

App-288

41

Appendix AO The register of actions for Mich. COA.
317976, DTE v Constant.

App*296

42

Appendix AP The register of actions for Mich. COA,
336489, Constant v Hammond.

App-310

43

Appendix AQ The register of actions for Mich. COA,
336620, Constant v DTE.

App-318

44

Appendix AR The register of actions for Mich. COA,
337483, Constant v Prince.

App*327

45

Appendix AS The register of actions for Mich. COA,
338455, Joseph Constant v Leland Prince

App*333

46

Appendix AT The register of actions for Mich. COA,
338471, Constant v DTE

App-338

47

Appendix AU The register of actions for Mich. COA,
338685, Constant v DTE

App-341

48

Appendix AV The register of actions for Mich. COA,
338686, Constant v DTE

App-344

49

Appendix AW The register of actions for Mich. COA,

App-351

Xll

TABLE OF APPENDICES

PAGE

339034, Constant v DTE .
50

Appendix AX The register of actions for Mich. COA,
339311, Constant v Hammond

App-354

51

Appendix AY The register of actions for Mich. Supreme
Ct., 150846, DTE v Constant

App-356

52

Appendix AZ

App-370

53

Appendix BA The Mich. Supreme Ct., registers of action
for cases: 158458, 158459,158460,158461
158457, Constant v Hammond, Prince and
DTE

App-373

54

Appendix BB The Docket's History for USDC'MIED, 19cv-10339, Constant v DTE Electric et. al.

App-381

55

Appendix BC The Docket's History for US 6th Cir. COA,
20-1514, Constant v DTE Electric et. al.

App-389

56

Appendix BD The Ingodwee trust case Docket's history

App-396

57

Appendix BE The Court reporter’s email that attests to
the absence of media that should have con­
tained the 2/20/20 record of the motion hear­
ing event before Judge Kumar

App-398

58

Appendix BF The 2017 Billing invoices from Herweyer
and CMDA to DTE for Hammond

App-399

59

Appendix BG The 2017 Billing invoices from Herweyer
and CMDA to DTE for DTE

App-406

The register of actions for Mich. Supreme
Ct., 153609, Constant v Michigan Atty.
Grievance Commission

xm

TABLE OF APPENDICES

PAGE

60

Appendix BH The 2019 Billing invoices from Herweyer
and CMDA to DTE for Hammond

App-421

61

Appendix BI

App-431

62

Appendix BJ The Affidavit of Herweyer

App-440

63

Appendix BK My May 2016 letters to DTE CEO Anderson
and Hammond

App-445

64

Appendix BL Herweyer's 2016 letter to me not to sue DTE
for any reasons

App-447

65

Appendix BM Herweyer's Statement on why DTE filed the
August 2013 motion for voluntary dismissal.

App-448

66

Appendix BN My motions in the US COAto strike Her*
weyer's appearance for DTE, because it was
a cloaked appearance for a judge Kumar
and the Enterprise.

App*450

67

Appendix BO Judge Ritter's Story and others that made
the same crimes as he had done.

App-460

The 2019 Billing invoices from Herweyer
and CMDA to DTE for DTE

xiv

TABLE OF AUTKORITIE1964S
Cases
Dart v. Dart, 597 N.W.2d 82, 88 (Mich. 1999).

31

Demjanjuk v. Petrovsky, 10 F. 3d 338 * COA, 6th Cir. 1993

31
25, 34, 36,

Dennis v. Sparks, 449 U.S. 24 (1980).

37

Exxon Mobil, 544 U.S. at 284, 125 S.Ct. 1517.

31, 36

Hazel'Atlas Co. v. Hartford Co. 322 US 238, 64 S.
Ct. 997, 88 L. Ed. 1250

16, 35

Haines v. Kerner, 404 US 519 - Supreme Court 1972
Kenner v. C.I.R., 387 F. 2d 689 * COA, 7th Cir. 1968
Patricia Herring v. US, 424 F. 3d 384 ■ COA, 3rd Circuit 2005
Stump v. Sparkman, 435 U.S. 349 (1978)

21
21, 24, 32, 33, 34, 35
16
14, 30, 34, 37

Statutes and Rules
The Supremacy clause

2, 33

4th Amendment

2, 11
iii, vii, 2, 5, 24, 37

The 14th Amendment
18 USC § 1341

2,5

18 USC § 1343

2, 5, 24

18 USC § 1962

2, 29

18 USC § 1964

2, 34

xv

TABLE OF AUTHORITIE1964S
2, 30, 37

28 USC § 454
28 USC § 1331

34

42 USC § 1983

iii, 2, 5, 24, 25, 37
11

MCL 750.423 Perjury
Rules and Regulations
FRCP 5.2 - Privacy Protection For Filings Made with the Court.

7
29, 35, 36

Supreme court Rules 10(a), 10(b), 10(c)

9

MCR 2.114(D)
MCR 2.119

5, 9, 21

L.R. 2.119 (Oakland county 6th. Circuit court)

5, 9, 21

Other
4, 24, 29

Canon 4 (H). Practice of Law - Michi­
gan code of Judicial conduct.
Canon 4- (A) (5). Practice of Law. Code
of conduct for United States judges

29

Conspiracy

iii, vii, viii, 5, 23, 29, 32

Fraud Upon the Court ii, iii, viii, 4, 10, 15, 20, 23, 24, 29, 30, 31, 32, 33, 34, 35, 36
Judicial immunity
Res judicata

iii, viii, 3, 14, 25, 26, 29, 30, 36
iii, viii, 5, 22, 23, 24, 25, 26„ 29, 31, 32, 33, 35, 36,
32

Ripeness Doctrine
Rooker-Feldman Doctrine

iii, viii, 25, 26, 29, 31, 32, 33, 34, 35, 36
xvi

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
I, Joseph Constant, in pro se, respectfully prays that a writ of certiorari issue to
review the judgment below.

OPINIONS BELOW
The opinion of the United States court of appeals appears at Appendix-A to the
petition and is unpublished.
The opinion of the United States district court appears at Appendix-B to the
petition and is published at
https://www.govinfo.gov/content/pkg/USCOURTS-mied-2 19-cv-10339/pdf/USCQURTSmied-2 19-cv-10339-0.pdf

JURISDICTION
The date on which the United States Court of Appeals decided my case was
4/29/2021.
A timely filed petition for En Banc rehearing was denied on 6/21/2021, and a
copy of the order denying rehearing appears at Appendix-C.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(l).

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Article 6, Clause 2 • The Supremacy Clause of the United States (APPENDIX-I)
Amendment 4 - Search and seizure (APPENDIX*J).
Amendment 14 * Citizenship Rights - Due process and Equal Protection of the
Laws Section 1. (APPENDIX-L)
18 USC § 1341 ■ Frauds and swindles (APPENDIX-M)
18 USC § 1343 ■ Fraud by wire, radio, or television (APPENDIX-N)
18 USC § 1962— Racketeer Influenced and Corrupt Organizations Act
(APPENDIX-O)
18 USC § 1964 • Civil remedies (APPENDIX-P)
28 USC §454. Practice of law by justices and judges^
“Any justice or judge appointed under the authority of the United States who
engages in the practice of law is guilty of a high misdemeanor."
42 USC § 1983. Civil action for deprivation of rights (APPENDIX-Q)

2

STATEMENT OF THE CASE
A. There is an Enterprise as defined by the RICO Act, that is cen­
tral in this matter. It is a Michigan Judges' owned Law-firm.
1. The Enterprise is an unconscionable, underground, private, illegal, illicit nefari­
ous, pernicious criminal Racketeering Scheme - A law-firm, that offers litigation
services to clients, that promises its clients to win, shield and protect that impossible-to-win lawsuits when the facts, evidence and the laws to make it winnable
through the normal due processes of the law and of the courts can not do it. It is
owned, managed, controlled and directed by at least, the Michigan judges named
in the TABLE belowTABLE-2
Cheryl A Matthews
Deborah A Servitto
Jane M Beckering
Nanci J Grant
Karen M Fort Hood
Michael D Warren, Jr.
Shalina D Kumar
Rae Lee Chabot
Richard H. Bernstein

Elizabeth T. Clement
Elizabeth L. Gleicher
Kathleen Jansen
Hala Jarbou
Mary Beth Kelly
Joan L. Larsen
Stephen J. Markman
Bridget M. McCormack
Colleen A. O'Brien

Michael Riordan
William Saad
Michael J Talboth
Jonathan Tukel
David F. Viviano
Kurtis T. Wilder
Robert R Young, Jr
Brian K. Zahra
Denise Page Hood

2. These judges exploits and abuses their official positions as judges to make and
enact intentionally and purposefully corrupt judicial acts (which are permitted
by judicial immunity) that furthers the private illicit aims, objectives, mission,
purpose, business-contracts and agenda of the Enterprise, which is at work, sur­
reptitiously as a lead-litigator for at least a litigant within the proceedings of the

3

cases in the very courts, that these judges often adjudged. And they stifle and
obstruct the administration of justice, when justice is sought against them and
their clients, by their victims like me, who have dared to seek justice against
them.
3. The Enterprise is masked, cloaked and disguised outwardly in this matter as At­
torneys : Lincoln G Herweyer, Timothy Young, Acho and the Cummings, McClorey, Davis, Acho PLC, and have filed their appearances in courts as attorneys
for DTE.
4. Herweyer wrote the orders that the judges signed and prepared the documents
that the judges filed. Young provided Pre*signed signature pages for concluding
documents that Herweyer and the judges prepared and filed.
5. The Enterprise is assisted, aided and abetted by the silence, cooperation, com­
plicity and loyalty of some federal judges who were former state judges (Denise
Page Hood of USDC-MIED included) when cases are brought against them
and/or their clients in federal courts.

B. Judge Kumar made a fraud upon the courts for
the Enterprise and DTE and violated Canon 4
(H) of the Michigan code of judicial conduct.
6. Kumar litigated cases for DTE between 2/5/2013 and 6/21/2021.
7. Kumar made the frauds for the Enterprise, which DTE had hired to litigate cas­
es for it under DTE-Enterprise contract- PO A32211400.

4

C. Judge Kumar and DTE conspired and violated 18 USC §§
1343 & 1341, the RICO Act, 4th, 14th Amendments, 42 USC
§ 1983, conspiracy-to-conceal and frauds-upon-the-court

8. Kumar and the Enterprise furthered a specialized 2013 conspiracy between DTE
and the Enterprise to defraud the courts and award to DTE a judgment of prop­
erty easements rights over my property for free plus two injunctive orders
against me.
9. Kumar used the internet to transmit to me, the DTE captioned motion for an or­
der of preliminary injunction against me with its many bogus contents on
2/6/2013, when the document was never legally presented to the court by DTE,
and there was no associated filed Praecipe that legally invoked her jurisdiction
over the motion. (MCR 2.119 and LR 2.119 requirements). It is not the job of a
judge to serve complaints document on a litigant.
10. Kumar directed Heidi Walling, who transmitted to me, by Internet-email, sever­
al DTE's court related documents that contained purposefully falsified and per­
jured contents in violation of 18 USC § 1343.
11. DTE's Karen Bradley mailed to me, the same bogus contents as Kumar and
Walling had done in violation of 18 USC § 1341.

D. There is a DTE-to-Enterprise Purchase-order A32211400.

5

12. DTE is an intense frequent litigant in Michigan courts (from courts' case regis­
ters). It has a contract PO A32211400 with the Enterprise that predates 1/1/2005
for litigation services and for conspiring with individual judges to undermine,
corrupt, control, influence the judicial and decision-making processes of the state
courts, to fit its aims, where it is a litigant in a court-case.
13. The terms of the PO as applicable in my complaints are inferred from a combina­
tion of documents that identifies the activities performed under the PO, who per­
formed them, and what methods, channels and instruments were used.
14. From the 2017 billing invoices that were submitted to DTE by Herweyer, Young,
Acho for litigating the case for Hammond (APPENDICES1 BF, BH) the following
are revealed(1) The PO A32211400 was for on-going litigation services for DTE.
(2) The Services rendered was for litigating the case for the DTE litigant: Ham­
mond.
(3) Attorney Paula Johnson-Bacon is the DTE contract administrator and Her­
weyer is her counter-part at the Enterprise end.
(4) The actual litigators (team) who performed the litigating-services for Ham­
mond in the state trial court were Johnson-Bacon, Herweyer, Timothy Young,
Ronald Acho, Leland Prince, and Attorney H Scott Garrison of Judge
Chabot's chambers and Warren and all these but Young, were never regis­
tered in the Oakland county 6th circuit court as counsels for Hammond.

6

(5) The Enterprise and its privies, decoys and agents included: Lincoln G Herweyer PC (LGHPC), Cummings-McClorey-Davis-Acho PLC (CMDA), Attor­
neys: Herweyer, Young, Acho, Judge Chabot and her chamber’s attorney * H
Scott Garrison and Judge Warren.
(6) The litigation Acts are identified as: Emails exchanges, telephone calls, con­
ferences, discussions, defense strategies’ developments, court documents
preparations and reviews for the defense of Hammond, instructing, directing
and influencing Judge Warren not to conduct a live hearing of the motion for
summary disposition of my case against Hammond which he had planned
and scheduled
15. From the 2017 billing invoices that were submitted to DTE by Herweyer, Young
and Acho for litigating the case for DTE (APPENDICES: BG, BI), the following
are revealed:
(1) The electronic copies of the records were not filed in court and only heavily
redacted printed hard-copies were provided directly to Judge Warren and my­
self and this was done to perfect the concealment of damning data on the
records which electronic copies may not do.
(2) The data on the invoices were intentionally, heavily redacted beyond what is
necessary or required by FRCP 5.2, and were meant to conceal damning and
revealing data against DTE and the Enterprise and the heavy extents of the
litigating acts and conferences with Judge Mathews, emails and telephone
communications (wire frauds acts).
7

(3) The litigating acts though heavily concealed by extreme redaction were an
echo and reflection of what were on the billing invoices for Hammond (APPENDICES: BF, BH) and is nearly twice the acts.
(4) The litigation team for DTE were the same as were for my case against Ham­
mond with judges- Kumar and Matthews and their chambers' attorneys
added on, here.
(5) The PO on the invoices is the same as are on the invoices for Hammond and
is A32211400.
16. From the Oakland county register of actions for my 3 separate cases against
DTE, Prince and Hammond (APPENDICES* AL, AM, AN) it shows that the liti­
gating acts were a mirror and echo of each other - similar motions and docu­
ments were filed by the Enterprise.
17. In January 2017, Judge Grant denied my fee waiver applications based on the
directives of the Enterprise to constrict my litigating acts and her chamber's at­
torney presented to me, the Federal Judge Cox's 2015 order that denied my fee
waiver application as authority.

E. Judge Kumar's and the Enterprise's Litigating Acts Provides
Abounding Direct and Empirical Proof of the Enterprise.

18. On 9/21/2010, DTE entered my homestead property and cut several of my trees
at the west-edge, in an area were it had never in its history cut any trees, be-

8

cause none existed there, until I planted them in 1998 and DTE did not have an
expressed or prescriptive property easements right-of-way to cut trees there.
19. On 12/28/2010, DTE resident counsels, Michael Solo and Gary Kravitz and Ham­
mond telephoned me and offered me a settlement that did not include any cash,
and I responded in a later writing, with a counter terms which included some
cash ($16,000). But DTE did not accept the offer and instead, by 1/24/2013, Ham­
mond’s boss, Edward Halash informed me by telephone and email that DTE does
not pay cash for property easements rights, that the negotiation between DTE
and myself had failed and that, they will see me in court, pretty-much (APPENDIX-AI).
20. By 2/5/2013, DTE, the Enterprise and Judge Kumar conspired to defraud the
court and defraud me with a bogus lawsuit against me to secure a Judgment of
property easements rights over my property for free to DTE, circumvent DTE
paying me for it, plus 2 injunctive orders of preliminary and permanent injunc­
tions against me.
21. By 2/5/2013, Attorney Prince signed the DTE bogus complaint documents as be­
ing the truth, while he knew them to not be the truth and were false and mis­
leading statements and were in violation of MCR 2.114(D).
22. By 2/5/2013, Judge Kumar was in the private possession of a DTE motion for an
order of preliminary injunction against me contained in APPENDIX-S. The mo­
tion was never legally presented in court (MCR 2.119), and no Praecipe (LR
2.119) that invoked her jurisdiction over the motion existed.
9

23. Judge Kumar edited several portions of the documents as I had detailed in my
filings in the US District court case No 19*cv 10339, and she then signed a DTE
proposed order for me to appear in court on 2/20/2013 and show cause why an or­
der of preliminary injunction shall not issue against me.
24. On 2/20/2013 and well before court started for everybody else waiting in court­
room 1C, Judge Kumar directed her chamber's staff to lead the litigants for the
DTE case to a back-office conference room. There, she herself presented the DTE
motion. (This is direct courtroom litigating of a case for the litigant DTE by the
judge). Throughout, the DTE attorney named on the court documents - Prince
did not say a word. This demonstrated that the real attorney on the case for the
litigant DTE, was Judge Kumar and not Prince, and that Prince was a level of
cloaking and was there as a cover and decoy for Judge Kumar’s litigating the
case for DTE and that the Power-of* attorney to litigate the case for DTE rested
with Judge Kumar and the Enterprise in the PO A32211400 and not with Prince.
25. Judge Kumar knew that her actions and conducts were a fraud on the court and
was a crime, and that is why she had purposefully moved the proceedings out of
Courtroom 1C to where it could not be captured by the courtroom's recording de­
vices and not be available for transcription, or noticed by an astute observant
person present, as an improper conduct.
26. The case’s register of actions shows that the motion for me to show cause, why a
preliminary injunction shall not issue against me, was heard and an order is­
sued and filed (APPENDIX-T) but the request for transcripts from the court re-

10

porter shows that the court had none that existed to be transcribed (APPENDIXBE - Court reporter’s email).
27. On 2/26/2013 Hammond made a perjured affidavit (MCL 750.423 violation) to
support the DTE complaint and motion(APPENDIX-AH, page: App-251)).
28. Judge Kumar, the Enterprise, DTE, Prince and Hammond defrauded the court
and caused to be issued 5 court orders on a motion for preliminary injunction
against me that DTE never legally presented:
(1) The 2/5/2013 order for me to appear in court on 2/20/2013 and show cause
why an order of preliminary injunction against me shall not issue (AP­
PENDIX’S).
(2) The 2/20/2013 order: (l) for me to provide a supplemental brief and an Affi­
davit to support my defenses of the DTE Motion for an order of preliminary
injunction against me, and (2) adjourned the decision on the motion to a lat­
er unspecified future date (APPENDIX-T).
(3) The 3/27/2013 order of preliminary injunction against me (APPENDIX-U).
(4) The 8/14/2013 Order of (voluntary) dismissals of the DTE case against me,
well ahead of the 12/13/2013 trial-date (APPENDIX-V).
29. Between 5/23/2013 and 5/31/2013, DTE used the corruptly issued 3/27/2013 Or­
der of Preliminary injunction against me and executed a search on my property,
seized, cut and trimmed several of my trees and this is property injury and viola­
tion of my 4th Amendment rights.

11

30. By 8/1/2013, Hammond

was served a subpoena to

perjured affidavit of 2/26/2013 and DTE 1
Nelson and Davy Trees)

appear in court to alibi his

ine clearance contractors (Asplundh,

were also served subpoenas to produce records that

would substantiate the DTE complaint's claims that it
S line clearance contractors had been denied

access unto my property for the

span of 22 years (approxi-

mately 10/1991 to 2/5/2013).
31. In response, Hammond refused to
appear in court and to avoid contempt of
court, DTE filed a motion for voluntary dismissal
and praeciped it for hearing on
8/21/2013. DTE proffered six i
intentionally falsified statements as its reasons for
filing the motion, digging itself deeper,
into the mud of fraudulent claims.
32.1 then, filed an objection to the

terms of the dismissal and praeciped 13 of my
previously filed motions for heari
ng on 8/14/2013.

33. In reaction, j

*° 8M2013'

K«™>, heid ,„d conduced

..a
for DTE', defense, during which the, reached

a private

.,.h Prince and Herweyer

an agreement to bring forward
from 8/21/2013 to 8/14/2013 the hearing of the DTE
motion for voluntary dis­
missal, which the Enterprise had filed
and praeciped for 8/21/2013 hearing,
through their decoy - Prince, in-,
order to hear the motion first and ahead of mine,
then grant it, and pre-empt the heari
-ng of my 13 motions on the dockets that
day, and end the lawsuit. The Transcripts APPEND IX-Z,
page 3 reads in part:

22

ft“,h
12

e docket, DTE v Joseph Con-

4

MR. PRINCE:
Plaintiff.

Good morning, your honor. Leland Prince on behalf of the

THE COURT:

Where is the DTE Lawyer? Where is the DTE lawyer

MR. PRINCE:

I represent DTE.

THE COURT:

Oh sorry, sorry, sorry.

MR CONSTANT: Joseph Constant
THE COURT:

Okay. Go ahead.

MR PRINCE: Its not my motion.
“THE COURT: Well, arent we hearing a motion from you today?
MR PRINCE: Well, I do have a motion but I had praeciped it up for next
week. But if the Court wouTHE COURT:

Right, but we said we were gonna hear it today.

MR PRINCE:
volunteer--

Okay we’re gonna hear it today. Well, my motion is to dismiss

THE COURT:

Right, yes.

MR PRINCE:

- - Voluntarily

THE COURT:

Yes.”

34. Clearly from the above, Judge Kumar have admitted to being part of the litigat­
ing team meeting that pre-planned and litigated the DTE motion for voluntary
dismissal on 8/14/2013 for the litigant: DTE, in the very court that she controlled. The rest of the Transcripts showed Judge Kumar going back and forth,
negotiating with me, the terms of the dismissal and this, further demonstrated
her litigator status in the proceedings.
35. Attorney Herweyer would later implicitly admit that he was part of the DTE liti­
gating team when he wrote in a document that DTE had suddenly decided to end
the lawsuit on 8/21/2013 before trial, because I was too litigious and it was not

13

worth the midnight candle to the $26 billion rich DTE with its 66 in-house
lawyers (See APPENDIX-BM).
36. On 8/14/2013 in Courtroom 1C, Judge Kumar and Prince Co-presented the same
motion that she, the Enterprise, Herweyer and Prince had co-strategized, and, at
the same time adjudged and then granted the motion in the same integrated
acts, and then closed the case (See APPENDIX-Z * Transcripts). The Order was
secured by fraudulent claims in the DTE motion for voluntary dismissal which
Prince had signed as being the truth, when he knew them to not be the truths.
The real truths for the motion are these:
(1) It was determined that judge Kumar was not following Enterprise protocols
She was supposed to have disallowed and denied the signing of the subpoena
for Hammond to appear in court to alibi his intentionally and purposefully
perjured affidavit.
(2) Judge Kumar had made judicial acts without a Praecipe and this failed to
convey on her jurisdiction over the motion and as such, she was no longer
protected by absolute judicial immunity, under Stump v Sparkman.
(3) Hammond had refused to appear in court as ordered and fearing further legal
consequences against his person for his perjured affidavit, and to avoid con­
tempt of court, voluntary dismissal of the case was the safe-harbor best op­
tion.
(4) The Enterprise was convinced that I was litigious and posed predictable risk
of litigation against them and DTE for recovery.
14

(5) Most of all, Judge Kumar - a fairly new inductee and rookie to the judge's
schemes, was no longer at ease, with the entire racket-run.
37. In the end, DTE did not win its most sought-after goal, a judgment of property
easements rights over my property and it did not win an order of permanent in­
junction against me either. Eight+ years on, DTE have not moved the courts
again for a judgment of property easements rights over my property. So, DTE
never had any honest legal entitlement to the claim in the first place before
2/5/2013 and had filed the fraudulent lawsuit against me, to force the failed ne­
gotiation between it and I, its way. In short, DTE's motive for the suit was pure
fraud against me, and a straight-face bold defiance of the US constitution and
the rule of law.
38. On 9/3/2013,1 appealed the case to the extents that I understood it, to the Michi­
gan COAin case No 317976. The court affirmed the trial court's decisions on
12/4/2014.
39. On 1/15/2015,1 applied to the Michigan supreme court for leave to appeal in
case No 150846 and the court denied the application on 9/29/2015.
40.On 2/4/2016,1 petitioned the U.S. Supreme court in case No 15-8040 for a Writ of
Certiorari and the court denied the petition on 4/18/2016 and denied my motion
for rehearing on 6/20/2016 and this concluded the proceeding.
41. Because, when a fraud has been made upon the court, there is no decision, and
there is no final judgment and under these condition, claims can be made

15

against the frauds even if the case has reached the U.S. Supreme court, such as
the cases listed below(1) Hazel-Atlas Co. v. Hartford Co. 322 US 238, 64 S. Ct. 997, 88 L. Ed. 1250 Supreme Court, 1944.
(2) Patricia Herring v. US. 424 F. 3d 384 - COA, 3rd Circuit 2005.
42. DTE was poised to win the judgment of easements rights over my property plus
the permanent injunctive order against me by 12/13/2013 but had suddenly filed
a motion in August 2013 to quit, because Hammond would not appear in court to
alibi his affidavit, demonstrated there was a crime beneath the lawsuit.
43. Prince avoided appearances for all 3 case status conferences before judge Kumar
in 2013. Kumar’s office telephoned him severally, but he ignored their calls. He
was limiting his decoy role in the scheme.
44. In May 2016 and before I filed the 3 lawsuits against DTE, Prince and Ham­
mond, I wrote a letter to the DTE CEO Anderson and Hammond in which I noti­
fied them that I intended to take legal actions against DTE and Hammond for
the 2013 fraudulent DTE lawsuit against me, and that they were to take actions
and inform the courts of the true facts of their 2013 action against me - which
was premeditated fraud against me.(see APPENDIX-BK).
45. DTE turned the letters over to the Enterprise who wrote to me by their decoy *
Herweyer, who threatened me, not to dare bring any claims against DTE or
Hammond * not even tangentially, or I will not like what will happen to me im-

16

plicitly. He directed that I send all future correspondences on the matter to him
as the DTE attorney (see APPENDIX-BL).
46.Herweyer's 2016 letter to me. 2017 invoices to DTE and PO A32211400 connects
and links him as a litigator for DTE in the 2013 lawsuit against me, even though
Herweyer was never a counsel that had filed an appearance for DTE in the trial
court were Judge Kumar coditigated the case, with Prince.
47. On 11/23/2016, at the hearing of the motion to strike my complaint against Ham­
mond, Young asserted that the 2016 lawsuit against Hammond was rooted on
the original 2013 DTE lawsuit against me. In his 2017 billing invoice, for his liti­
gating works for Hammond, the PO A32211400 is identified as the contract for
his works and this links and places him and judge Kumar as being in the same
litigating camp and is the Enterprise.
48. In his Affidavit (APPENDIX-BJ), Herweyer admitted that he was the be­
hind-the-scenes author and reviewer of most of the documents (briefs, motions,
answers, replies) that were filed in the Oakland county 6th circuit court forDTE, Prince and Hammond. Yet, Herweyer was never an attorney who had filed
an appearance in the trial courts as counsel for the trio. Young, Acho and CMDA
were the official litigators for the trio, and they themselves, were actually decoys
for the Enterprise.
49. Between 6/23/2016 and 9/26/2016,1 filed 3 separate lawsuits in the Oakland
county 6th circuit court, each against DTE, Prince and Hammond for remedies
against their respective roles in the 2013 fraudulent DTE lawsuit against me
17

that violated the RICO Act, my civil rights and defrauded the courts between
2/5/2013 and 9/29/2015.
50. The Enterprise captured control of the adjudging of my complaints mostly by
stipulated orders and assigned them, to their members, Judges: Matthews,
Chabot and Warren, and they jointly litigated the proceedings for DTE, Prince
and Hammond through their decoys- the CMDA PLC and LGHPC.
51. The Enterprise waged a belligerent, hostile, mean, violent litigation campaign
against me with a deluge and avalanche of motions after motions that sought the
following(1) For more definite statements
(2) To strike my complaints
(3) To change captions removing my connections of all other DTE names
(4) For me to remove my references to the DTE CEO ■ Anderson and DTE’s $26+
billion worth, in the complaints, claiming that they were scandalous, inde­
cent, improper, impertinent, when they were not.
(5) )For Protective orders against my discovery requests.
(6) For monetary sanctions against me with almost every document/motion they
filed.

18

52. They objected 100% to every single relief that I had sought from the court, such
as motions for extension of time to file, amend and/or enlarge a document size
with extreme violent, obnoxious and dehumanizing language.
53. They vilified and heaped on me a catalog of ad hominem attacks and made such
bigoted claims that I hate women and have only sued the women judges involved
in this matter - an uncalled-for, attack on my single person status and its broad
connotations.
54. In the court that Matthews controlled (Constant v DTE), Matthews denied 100%
of my motions and she granted 100% of the Enterprise’s motions for DTE.
55. In the courts that Chabot and Warren controlled (Constant v Hammond) the En­
terprise did almost the same as the above.
56. The combined register of actions events in the state courts alone is a staggering'
1,660 and in the lower Federal courts to-date is 108 (see APPENDICES^ AJ-BA).
In contrast to a similar federal case with similar defendants and claims, Ingodwee trust v DTE, Hammond et. al., and where the Enterprise is not verified to be
active, the total register of actions events is a measly 12 from start to finish (see
APPENDIX-BD).
57. Attorneys Young and Herweyer with more than 60+ years lawyer experience,
mocked my pro-se citations to case laws that are not Michigan's and held that
they were not bound by a decision of the 3rd Circuit, I had cited.

19

t

58. Matthews, in extreme discourteous language and arguments, refused to disqual­
ify herself from adjudging my complaints against DTE * twice I motioned the
courts, and twice she refused. She did this as a vested custodian of the Enter­
prise to keep its works within that case, going, well-shielded and protected, (see
APPENDICES: F, App-40 to App-41).
59. Judge Warren in extremely discourteous language and arguments also refused to
disqualify himself from presiding over my case against Hammond.
60. Matthews refused to sign my subpoena requests for discoveries, which I could
not sign as a pro-se litigant in the court but she signed the Enterprise's ex-parte
subpoena which was to determine my wealth and build a case around my indi­
gent claim.
61. Matthews assessed me $500 for filing a motion to set the 3/27/2013 Order of pre­
liminary injunction against me aside because of fraud upon the court. She then
reduced it to a judgment and issued a bench warrant for me to be arrested on a
$10,000 cash bond, for not appearing in court to answer questions on my fi­
nances to pay the $500 in 2017 (APPENDIX-X). All this was while the $500
sanctions was on appeal to the Michigan COA.
62. Matthews then issued another new bench warrant for me to be arrested on a
$10,000 cash bond on 6/7/2018 as I was expected to appear for the 7/12/2018 Oral
arguments in the Michigan COA. There was no motion and no Praecipe to sup­
port the order (APPENDIX-Y). She just made it happen. Herweyer asked
Matthews to issue the order.
20

63. Matthews mocked and ridiculed my English language writing skills in court or­
ders and opinions and wrote that I had sought relief for “wrongful enjoyment”,
when I had meant to write- “wrongfully enjoined”, and Judge Warren did the
same - he wrote, that, my writings were seriatim and dilatory. The conducts of
these judges were barred by the Supreme court's directives in Haines v Kenner
that my writings as a pro se litigant is not to be held, to the same high stan­
dards, as are held for professional lawyers, and should be construed liberally.
They ignored this Federal law.
64. On 9/28/2016 at a hearing of the Enterprise's motion to strike my complaint
against DTE, Matthews insisted that she did not understand my complaint and
as such it must be stricken, and it was. But everybody else did (MPSC, Judge
Chabot, all other courts). At the end, I asked her a simple question to explain her
order, and she mocked me to get a lawyer. Matthews knew that no lawyer can
make a difference for me, since she was both the judge on the case and the co-litigator with Judge Kumar and the Enterprise for my opponent - DTE.
65. Judge Warren demanded that I post a $2,500 cash bond to amend my complaint
against Prince which MCR 2.119 says that I should be freely permitted to do. I
could not post such huge amount of money and he tactically denied my motion.
66. Judge Warren was prevented by the Enterprise from holding a live-hearing of
their motion for summary dismissal of my complaint against Hammond, which
he had planned to conduct.

21

67.1n March 2017, Matthews signed a purported DTE requested subpoena for my fi­
nancial records. The information was already known and provided to DTE 1-1/2
months earlier in January 2017, as part of my re-enrollment in the DTE LSP
program. So, the request was not from DTE, but from the Enterprise who had no
knowledge of the DTE LSP program and me.
68. Judges- Ft Hood, Servitto, Beckering fined me $250 for filing a letter in court no­
tifying it of Matthews' new June 2018 bench warrant for me to be arrested with­
out due process of the law.
69. As of 11/19/2019, the Enterprise have placed nearly $100,000 in judgment liens
against my property to pay themselves and their decoys.
70.1 had zero chances to justice in the Michigan courts, and faced the risk of being
killed by Judge Chervl Matthews. Herweyer and the Enterprise. This is what I
deeply feel, know, sense and believe.
71. On 12/22/2016 and 5/2/2017, Judge Warren dismissed my complaints against
Hammond and Prince each, on res judicata, but he denied the Enterprise’s mo­
tion for vexatious litigant against me (APPENDICES G, H).
72.1 appealed each of the 3 cases to the Michigan COA.
73. While on appeal, on 6/1/2017, the Enterprise filed a new motion for determina­
tion that my complaints were frivolous and Judge Warren stayed the case pend­
ing the appeal but later on 5/21/2019, he obeyed their directives, and issued an

22

order that deemed my complaints frivolous, and after the stay on the case was
lifted.
74. During my appeals to the MI COA, judge Matthews refused to stay the case
(Constant v DTE) and she continued to generate new orders based on continuing
Enterprise filed motions, each of which, I appealed to the Michigan COA.
75. On 8/16/2018, the Michigan COA judges- Fort Hood, Servitto and Beckering is*
sued an order, that(1) Affirmed all the decisions of the state trial courts and stated in their order
that my claims of frauds upon the court against DTE, Prince and Hammond
could only have been made in the proceedings of the 2013 DTE case against
me, where the frauds were committed and since, I did not do so back then, my
claims of frauds upon the court were barred by res judicata.
(2)‘Denied that I had not claimed conspiracy against DTE, Prince and Hammond
in the trial courts, when in fact I did, and that is exactly why Judge Chabot
sua sponte disqualified herself from my case against Hammond on
11/23/2016, at the hearing of the Enterprise’s motion to strike my complaints
against Hammond and award sanctions to DTE and against me. I told the
court that DTE was in a conspiracy with the courthouse judges and was inde­
cently influencing the outcomes of decisions in that courthouse that involves
it (see APPENDIX-AD - Transcripts). I also claimed conspiracy in the case
Evaluation for my case against Prince before Judge Warren and Young had
also based his submissions on that.
23

(3) Deemed my complaints vexatious and ordered the trial courts to assess me
attorney fees (to pay their implicit selves).
76.The above order was corruptly designed to: (l) undermine the federal case-law,
Kenner v CIR's 7th. Circuit's exceptions to res judicata, that applies when a
fraud has been made upon the court, (2) further the work of the Enterprise and
Judge Kumar's who were the real true litigators in the proceedings of the courts
for the litigants- DTE, Prince and Hammond, but were decoyed and disguised by,
attorneys^ Herweyer and Acho.
77.The judges and DTE, by their conducts and acts between 6/23/2016 and 2/4/2019,
have violated anew. Canon 4 (H) of the Michigan code of judicial conduct, the
RICO Act, 18 USC § 1343 * wire frauds, 14th Amendment and 42 USC § 1983
and these provided me the basis in law to seek remedies in the USDC-MIED on
2/4/2019.

F.

The Proceedings in the Federal Courts.

78. On 2/4/2019, and well before the Michigan supreme court denied my application
to appeal on 4/2/2019,1 filed a single lawsuit in the USDC-MIED, case No 19*cv*
10339 against DTE, Prince and Hammond and 8 of the Enterprise’s executivesJudges' Kumar, Matthews, Grant, Warren, Chabot, Fort Hood, Beckering,
Servitto, to secure the remedies for their various roles, acts and violations in the
proceedings of the state courts regarding this matter that have caused the laws
listed in the preceding paragraph to become violated.

24

79. Judge Kumar and the Enterprise made a fresh batch of frauds upon the federal
court by litigating the case for the litigants- DTE, Prince and Hammond under
the DTE'Enterprise PO A32211400, as they were the only two entities contract­
ed and authorized by DTE to make the litigating acts. They were openly decoyed
by Attorneys- Nolan, Acho and CMDA PLC and in the background by Herweyer.
80. On 7/16/2019, DTE, Prince, Hammond, Judges: Fort Hood, Servitto, Beckering,
Matthews, Grant, Kumar, Chabot and Warren filed motions to dismiss my com­
plaints on res judicata, the rooker-feldman doctrine and judicial immunity and
they also sought an order that enjoined me from filing any new claims against
them and the matter without permission of the court.
81. Around 6 PM on the same day, the same above judges filed a joinder concur­
rence with DTE. - to strengthen their defenses and provide DTE a mechanism to
escape liability and circumvent the provisions in Dennis v Sparks which holds
that private entities who have assisted judicial officials to violate the law can be
sued under 42 USC § 1983.
82. Seconds after the filing of the joinder-concurrence, Judge Hood issued an order
for oral arguments on the motions for dismissals to take place on 9/11/2019 3-00
PM. (See APPENDIX-BB -Docket's history) The timing of the filing of the join­
der-concurrence and the scheduling of oral arguments suggests that the filer of
the two documents was one and the same and/or that federal Judge Hood was in
private dialogue, discussions and possible negotiations with some of the state of
Michigan judges that are linked in this complaint like Karen Fort Hood (a for-

25

mer relative of hers), Servitto, Beckering, Grant, Matthews, Chabot, Kumar and
Warren.
83. The excepts from pages: 12*13 of the transcripts of the 9/11/2019 hearings (AP­
PENDIX*AF) shows that Judge Hood knew these defendants to such in-depth
extents and degrees that she should have upfront disqualified herself from pre­
siding over the complaints, the first time, the case was assigned to her, which
she did not do:
“
THE COURT: Okay, thank you. I should have said in the beginning that
“I have been on the benches of the state court and the federal court and that
therefore, I do and have knowledge of Mr. Prince who has practiced before me. I
also know Judge Nanci Grant, Judge Rae Lee Chabot, Judge Deborah Servitto
and I have or may have likely had contact with all the other judges. Judge Karen
Ft Hood and I were related about almost 30 years ago and since the time that we
have no longer been related I have had professional contact with her similar to
the other judges on here. So I should disclose that, but I don’t think it prevents
me from being fair and impartial
So, Mr. Constant, now that I’ve disclosed, you may have 10 minutes”
MR CONSTANT: Okay.
THE COURT: Maximum....”
84. On Sunday 5/31/2020 around 8:00 PM, Judge Denise Hood issued an order that
dismissed my complaints on res judicata, the rooker-feldman doctrine and judi­
cial immunity and further enjoined me from filing any new complaints on this
matter.
85. The order: (l) denied that the 9/11/2019 hearings had taken place, (2) held incor­
rectly that the Court had ordered briefs and had made its decisions on briefs, (3)
held incorrectly that an order of permanent injunction was issued against me in
the original 2013 DTE case against me.
26

86. But the court’s docket history and the Transcripts filed by the court reporter
Janice Coleman on 6/29/2020 in ECF 39 shows that a hearing had taken place,
and the court had never ordered briefs upon which it had decided the motions to
dismiss my complaint.
87. An order of preliminary injunction was, what was issued against me on
3/27/2013 (one of 6 orders in the case), and even then, the order was never a true
decision because Judge Kumar, the Enterprise, DTE, Prince and Hammond had
defrauded the court to secure the orders.
88. The way the judges' RICO schemes works is that any judge who had ever made a
judicial act that furthered the Enterprise's work, becomes trapped and implicat­
ed in liability for the acts of the Enterprise, and are bound to protect the Enter­
prise, if ever challenged, to ultimately protect themselves. And that is why - in­
part, the judges, including Denise Hood made the orders they made. The order
was drafted by the Enterprise for Judge Hood to implement.
89. On 6/1/2020,1 appealed the District court’s decision to the US 6th Circuit COA
in case No 20-1514.
90. On 7/6/2020, Herweyer filed an appearance and Corporate Disclosure for DTE
Prince and Hammond in the court, after Acho, Nolan and CMDA PLC did not file
an' appearance.
91. On 10/2/2020,1 filed two motions in the court (dockets' 21-22) , that included a
request for the court to strike Herweyer's appearance because it was a disguised
and cloaked appearance for Judge Kumar and the Enterprise who alone held the
27

Power*of-attorney to litigate the case for DTE, Prince and Hammond (See APPENDIX-BN).
92.Herweyer did not respond to the filing and he stopped filings any new documents
in the court altogether * No Appellee’s brief were filed or the sort of fiery objec­
tions to my motions that he made in the State courts were he represented the
Enterprise with impunity and total freedom. Herweyer's self-arrest and retreat,
is consent that he was indeed a decoy and mask by which the Enterprise operat­
ed.
93. In contrast, Heather Meingast, filed the appearance for judges’ Servitto, Fort
Hood and Beckering and continued to file various court documents, motions and
the Appellee’s brief
94. No appearance of counsel or documents were filed in the COA for judges: Kumar,
Grant, Matthews, Warren and Chabot.
95. From the registers of Actions for my cases against Hammond, Prince and the
Michigan Attorney-general et. al. (APPENDICES- AK, AL, AM, AN)) in the State
trial court, Judge Warren have finally removed himself from presiding over my
complaints involving DTE, as of 1/2/2021.1 believe that he did this to curb the
Enterprise's control and influence over him and limit debilitating claims against
him, just like Chabot tactically did on 11/23/2016.
96. On 4/29/2021, the US 6th Circuit affirmed the district court's ruling, denied my
pending motions to strike Herweyer’s appearance as counsel for DTE, Prince and
Hammond because it was a cloaked and disguised appearance for Judge Kumar
28

and the Enterprise, who alone held the POA to litigate the case for the trio, un­
der the DTE-Enterprise contract No A32211400.
97. On 6/21/2021, the US 6th Circuit denied my petition for En Banc rehearing of
the appeal.

REASONS FOR GRANTING THE PETITION
I

Judge Kumar and the Executives of the Judges' RICO Enterprise made
frauds upon the court when1. They litigated cases for DTE under the DTE-to-Enterprise PO
A32211400 between 2/5/2013 and 6/21/2021,
2. They furthered the specialized 2013 conspiracy and contract be­
tween DTE, Judge Kumar and the Enterprise to defraud the courts
for court orders, which DTE would otherwise, not have been able to
obtain by law, facts and evidence,
3. They violated Canon 4(H) of the Michigan code of Judicial conduct,
the RICO Act and my civil rights.

II

Res judicata, the Rooker-Feldman Doctrine and Judicial immunity cannot
bar and dismiss my complaints, when their elements have not been met.

III

The Supreme court's rules 10(a), (b), (c) provides strong and compelling
reasons for Grant of this Petition

98. I incorporate here by reference, all previous paragraphs as if fully re-stated.
99. 18 USC § 1962 (APPENDIX-O) holds the judges litigating acts and conspiracies
with DTE as Prohibited Acts.
100. Canon 4(H) of the Michigan code of judicial conduct reads’
“A judge should not practice law for compensation except as otherwise provid­
ed by law”
101. Canon 4 (A) (5) - Code of conduct for US Judges reads'

29

“A judge should not practice law and should not serve as a family member’s
lawyer in any forum...... “
102.28 USC § 454 reads• “Any justice or judge appointed under the authority of the United States who
engages in the practice of law is guilty of a high misdemeanor”
103. Judicial Immunity elements is set in- Stump v. Sparkman, 435 US 349 ■
Supreme Court 1978.” and reads:
“A judge will not be deprived of immunity because the action he took was in
error, was done maliciously, or was in excess of his authority; rather, he will
be subject to liability only when he has acted in the "clear absence of all ju­
risdiction." 13 Wall., at 351.”
104. Accordingly, Judges: Kumar and the Enterprise's executives have no immunity
because the litigating of a case by a sitting judge is a clear crime and are prohib­
ited non-judicial acts and there is never a jurisdiction for a judge to make the
acts, and as such the elements of judicial immunity, pursuant to Stump v Spark­
man, have not been met to bar and dismiss my complaints.

105. DTE and the Enterprise separately conspired to defraud the court for court or­
ders which DTE would otherwise not have been able to obtain by normal due
processes of the courts. The judges issued several court orders to the extents as I
have briefly described in the narrative of my Statements.
106.Attorneys: Herweyer, Young, Acho, Kolobaric, Nolan, CMDA and Prince made
frauds upon the court when they served as decoys' for Judge Kumar and the En­
terprise's executives, litigating cases in courts, in 22/45 of the cases listed in the
Table of Related Cases at pp iv to vi of this petition.

30

107.In Bulloch v. United States, 763 F.2d 1115, 1121 (10th Cir. 1985), the court stated
"Fraud upon the court is fraud which is directed to the judicial machinery it­
self and is not fraud between the parties or fraudulent documents, false state­
ments or perjury. ... It is where the court or a member is corrupted or influ­
enced or influence is attempted or where the judge has not performed his ju­
dicial function — thus where the impartial functions of the court have been
directly corrupted."
108. In Demjanjuk v. Petrovsky, 10 F. 3d 338 - COA, 6th Circuit 1993, the court set
the elements of frauds upon the court as“consisting of conduct- (l) On the part of an officer of the court;, (2) That is
, directed to the "judicial machinery" itselfi, (3) That is intentionally false, wil­
fully blind to the truth, or is in reckless disregard for the truth; (4) That is a
positive averment or is concealment when one is under a duty to disclose;,
(5) That deceives the court.”
109. Applying the elements of the law for frauds upon the court (HH 107-108) over
Judge Kumar’s and the Enterprise's litigating acts, conspiracies with DTE that
defrauded the courts, described fully in the narrative of my statements and in f f
105-106) affirms the acts, as affirmative frauds upon the courts.
110. Res judicata applies when three elements are present“(l) the first action was decided on the merits, (2) the matter contested in the
second action was or could have been resolved in the first, and (3) both ac­
tions involve the same parties or their privies.” Dart v. Dart, 597 N.W.2d 82,
88 (Mich. 1999). When the evidence or essential facts are the same as the pri­
or action, res judicata bars a subsequent action between the parties. Id.
“Michigan courts have broadly applied the doctrine of res judicata. They have
barred, not only claims already litigated, but every claim arising from the
same transaction that the parties, exercising reasonable diligence, could have
raised but did not.” Id
111. Four requirements that must be met for the Rooker-Feldman doctrine to apply“(l) the federal plaintiff lost in state court; (2) the plaintiff "complains of in­
juries caused by the state-court judgments"; (3) those judgments were ren­
dered before the federal suit was filed; and (4) the plaintiff is inviting the dis­
trict court to review and reject the state judgments. Exxon Mobil, 544 U.S. at
284, 125 S.Ct. 1517"!”
31

112. Judge Kumar, the Enterprise's executives and their decoys (Herweyer, Acho,
Nolan, Young, Kolobaric and CMDA)'s frauds upon the courts rendered the deci­
sions from those courts as null decisions without a finality and this is pursuant
to:
“We think, however, that it can be reasoned that a decision produced by
fraud on the court is not in essence a decision at all, and never becomes
final” Kenner v. CIR, 387 F. 2d 689 - COA 7th Circuit 1968.”
113. Because of the established absence of a decision or final judgment, the 1st ele­
ments of both Res Judicata and the Rooker-feldman doctrine (there is no state
court looser or winner) are not met and as such, the dismissal of my complaints
on these doctrines are improper and in error.
114. Judge Kumar and the Enterprise's litigating of the cases for DTE, Prince and
Hammond between 2/5/2013 and ending on 6/21/2021 was a continuing activity
and was not an issue that could have been raised only in 2013, under the doc­
trine of ripeness, conspiracy and the RICO Act (which allows up to 10 years with
2 predicate acts to bring a claim) and therefore the 2nd element of res judicata is
not met to bar and dismiss my complaints.
115. Judge Kumar and the Enterprise's executives (the judges) were not parties in
any of the state court proceedings and as such they have not met the 3rd ele­
ment of res judicata to bar my complaints.
116. The source of my injuries is not in the state courts judgments but in Judge Ku­
mar's and the Enterprise's executives' frauds upon the courts, made by- (l) their
litigating of cases for DTE and (2) conspiracy to defraud the court to issue court

32

orders to DTE which DTE would otherwise not have been able to obtain by facts,
law and evidence, to deprive me of compensations for property easements rights
from DTE, violations of the RICO act and my civil rights to the equal protection
of the law, and as such, the 2nd element of the rooker-feldman doctrine have not
been met to bar my claims.
117. Because of the above reasons, the timings of the issuance of the state court judg­
ments are irrelevant here and they provide no support for the 3rd element of the
rooker-feldman doctrine to hold and be met.
118.1 have not asked the lower federal courts to review and reject the state court de­
cisions for errors per say, but rather(1) To find the embedded crimes of racketeering in the state court proceedings by
the very judges that were adjudging the cases and grant me the remedies for
those RICO violations, and as such the 4th element of the rooker-feldman
doctrine are not met.
(2) To take notice that the state COA order of 8/16/2018 was written purposeful­
ly, to undermines the federal case-law that provides exceptions to Res Judica­
ta in Kenner v CIR and allowing the order to stand as a state case-law vio­
lates the supremacy clause and stands to violate the rights of millions across
the country to the equal protection of the US Constitution. Having said this,
the order is still equal to all the others as products of frauds upon the courts,
and are subject to be voided and vacated under Kenner v CIR, and by the au-

33

<

A

thority conveyed on the US District court under 28 USC § 1331, 18 USC §
1964 and because it was not a rooker-feldman doctrine matter.
119. Because Judges- Kumar, Matthews, Warren, Chabot, Fort Hood, Servitto, Beckering had adjudged cases, in which the litigators for the litigants' DTE, Prince
and Hammond were the same exact judges adjudging the cases and were de­
coyed, cloaked and disguised as- Attorneys Prince, Young, Kolobaric, Acho,
Nolan, Herweyer, LGHPC and CMDA, the court was defrauded multiple times
by these officers of the courts (judges and attorneys). The adjudging judges never
had jurisdiction over the litigating judges (their implicit selves) and as such,
pursuant to Stump v Sparkman, these judges have no immunity because they
too, had litigated cases while holding offices as judges, and every order they is­
sued is not an order at all, because of frauds upon the court and further, because
of Kenner v CIR, US 7th circuit. “ A decision obtained by fraud upon the court, is
not a decision at all”.
120. In Dennis v. Sparks, 449 U.S. 24 (1980), The Supreme court held- “The action
against the private parties accused of conspiring with the judge is not subject to
dismissal.

” and as such, DTE, Prince and Hammond have no immunity, as

they had assisted the judges to violate the law, and as such, the dismissal of my
complaints were improper and in error.

121. Prince's 2013 falsified complaints statements for DTE and Hammond's perjured
affidavit and their subsequent continuing concealments are the sort of conducts

34

r
that the US Supreme court considered in finding fraud upon the court in HazelAtlas Co. v. Hartford Co., 322 US 238 - Supreme Court 1944.
122. The Supreme court should grant Certiorari for the following 5 more reasons in
addition to the preceding reasons that are based on the errors in the decisions of
the lower US courts^
(1) The judges' litigating acts are crimes, and warrants the same determinations
as the 1936 case of federal Judge Halsted L. Ritter, U.S. District Court for the
Southern District of Florida. He was impeached by the U.S. House of Repre­
sentatives, March 2, 1936, on charges of favoritism in the appointment of
.bankruptcy receivers and practicing law while sitting as a judge! He was con­
victed by the U.S. Senate and removed from office, April 17, 1936. (See APPENDIX-BO).
(2) Judge Kumar’s practice of law and the Enterprise's Executives RICO opera­
tions in Michigan is a matter that the supreme court rule 10(c) provides au­
thority for this court to invoke to review the matter.
(3) The 6th circuit's decision that suppressed the authority of the 7th Circuit's
Exceptions to res judicata in Kenner v CIR when a fraud has been practiced
on the court is unconstitutional and is a matter that the supreme court rule
10(a) and 10(b) provides authority for this court to invoke to review the mat­
ter.

35

(4) The 6th circuit's decisions that suppressed the authorities of the Supreme
court's (l) elements for the rooker-feldman doctrine as specified in Exxon-Mo*
bil, and (2) decision in Dennis v Sparks which holds that DTE, Prince and
Hammond should not have immunity because they had assisted Judge Ku­
mar and the Enterprise's executives to break the law are matters that the
supreme court rule 10(a) provides authority for this court to invoke to review
the matter.
(5) A Certiorari granted will curb the open flagrant practicing of law by state of
Michigan judges while serving as judges, prevent other state judges from en­
gaging in the practices and send a strong message to private entities who
sponsor the schemes that they will be severely punished for hiring judges to
litigate cases for them, and the constitution will be upheld in extending to
me, the remedies that I have sought, for the judges frauds upon the courts
that have caused several injuries to me.
(6) Not granting Certiorari will*
1. Legalize, boost and commercialize the business of sitting judges across
America practicing law on the side, while holding offices as judges and
give investors the incentives to invest in the Judges' schemes and build an
unprecedented industry that could dwarf Walmart, Amazon, Apple and
Microsoft combined, many-times over.
2. Alter and degrade the current values and meanings of res judicata, the
rooker-feldman doctrine, judicial immunity, Supreme court’s rulings in

36

Dennis v Sparks, Stump v Sparkman, the 14th. Amendment, 28 USC
§454, 42 USC § 1983, the RICO Act and these will be unconstitutional.
3. It will boost Judge Kumar, the Enterprise and DTE's resolve to violate my
civil rights and that of others in my situation and expect no repercussions.
123. Enjoining me from filing future lawsuits on this matter, is in open violation of
my civil rights to the equal protection of the law.

CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,

Joseph Constant
Date: 8/31/2021

37

